                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL




                            AUDIT OF

                  GROUNDWATER REMEDIATION PLANS

                   AT THE SAVANNAH RIVER SITE




The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
Therefore, this report will be available electronically through
the Internet five to seven days after publication at the
following alternative addresses:

            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

  U.S. Department of Energy Human Resources and Administration
                            Home Page
               http://www.hr.doe.gov/refshelf.htm1


Your comments would be appreciated and can be provided on the
Customer Response Form attached to the report.



Report Number: ER-B-96-02
Eastern Regional Audit Office
Oak Ridge, TN 37830

Date of Issue:    June 11, 1996



                  GROUNDWATER REMEDIATION PLANS
                   AT THE SAVANNAH RIVER SITE
                           TABLE OF CONTENTS


SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PART 1     - APPROACH AND OVERVIEW . . . . . . . . . . . . . . . 3

             Introduction . . . . . . . . . . . . . . . . . . . .3

             Scope and Methodology . . . . . . . . . . . . . . . 3

             Background . . . . . . . . . . . . . . . . . . . . .4

PART II - FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . .6

             Groundwater Remediation Plans at the
             Savannah River Site . . . . . . . . . . . . . . . 6

Part III     -       MANAGEMENT AND AUDITOR COMMENTS . . . . . .10
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES


                            AUDIT OF
                  GROUNDWATER REMEDIATION PLANS
                   AT THE SAVANNAH RIVER SITE


Audit Report Number:   ER-B-96-02
June 11, 1996


                              SUMMARY


     The Department of Energy was required to reduce groundwater
contamination that represented a risk to human health or the
environment. To achieve this goal, the Savannah River Operations
Office (Savannah River) entered into several formal agreements
with Federal and State regulators. The agreements described how
Savannah River would reduce the level of contamination until the
risks to human health and the environment were lowered to an
acceptable level.

     The agreements called for decreasing groundwater
contamination to levels that would comply with South Carolina
groundwater regulations, which would allow a hypothetical future
resident to someday live above the F and H Areas and drink the
groundwater. We believe basing the agreements on drinking water
standards was unreasonable because no one will likely live above
these areas or drink the groundwater. The more stringent
drinking water standards were included in the planning process
because Savannah River had not developed a Land Use Plan that
would permit rational decision making for the entire site.
Lacking a Land Use Plan, the environmental regulators assumed,
and Savannah River acceded to, the most stringent usage scenario,
that the groundwater under the F and H Areas might one day be
used as a source of drinking water. It will take more than one
hundred years for the subterranean groundwater to become safe
enough for drinking water purposes.

     Consequently, Savannah River may continue to pursue
expensive remediation projects for longer than would be necessary
to protect human health and the environment. However, the cost
impact of unnecessary clean-up activities is indeterminable
because acceptable contamination limits would still have to be
negotiated with the South Carolina Department of Health and
Environmental Control.

     We recommended that the Manager, Savannah River complete the
development of a Land Use Plan for the Savannah River Site. We
also recommended that, if the groundwater under the F and H Areas
qualifies for reclassification, including the intended uses as
described in the Land Use Plan, Savannah River should petition
the South Carolina Department of Health and Environmental Control
(SCDHEC) to reclassify the groundwater under the F and H Areas to
Class GC as outlined in South Carolina's "Water Classifications
and Standards."




                                        Office of Inspector General

                               PART I

                        APPROACH AND OVERVIEW


INTRODUCTION

     The Savannah River Site's (Site) primary mission is to
manage the waste products generated during the era of weapons
production, and restore the environment to a level acceptable
under current laws and regulations. The objective of the audit
was to determine if the remediation project, intended to clean up
the groundwater contamination under the F and H Areas, was
designed to minimize cost while still protecting human health and
the environment.


SCOPE AND METHODOLOGY

     The audit was performed at the Site from August 13, 1994,
through July 7, 1995. To accomplish the audit objective, we:

     *    reviewed applicable Federal, State, and Departmental
          regulations regarding groundwater remediation;

     *    reviewed current and proposed budget information concerning
          the groundwater remediation projects;

     *    interviewed the Savannah River Operations Office (Savannah
          River) and Westinghouse Savannah River Company (Westinghouse)
          project managers assigned to the groundwater remediation
          projects; and

     *    reviewed documentation pertaining to the history and the
          development of the groundwater remediation projects.

     The audit was conducted in accordance with generally
accepted Government auditing standards for performance audits,
and included tests of internal controls and compliance with laws
and regulations to the extent necessary to satisfy the objective
of the audit. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit. We placed no reliance
on computer-generated data during this audit and, thus, did not
test the reliability of any computer generated data.
     We held an exit conference with the Chief Financial Officer,
Savannah River, and staff on May 14, 1996, to discuss the finding
and recommendations presented in this report. Management's
comments on the report are contained in Part III.


BACKGROUND

     The Site, located near Aiken, South Carolina, is owned by
the Department of Energy (Department) and is managed and operated
by Westinghouse. For over 40 years, the Site used five nuclear
reactors to fulfill its primary mission of producing tritium and
other radioisotopes for use in defense-related activities. In
August 1988, the Department shut down the last of the Sitems
three operating reactors, and does not anticipate restarting any
of these reactors. Subsequently, the Sitems primary mission was
changed from producing nuclear materials to managing the waste
products generated during the era of weapons production, and
restoring the environment to a level acceptable under current
laws and regulations.

     The two predominant laws that determined the acceptability
of environmental conditions at the Site were the Resource
Conservation and Recovery Act (RCRA) and the Comprehensive
Environmental Response, Compensation and Liability Act (CERCLA).
These laws were administered by both Federal and State
regulators. The Federal regulator was the Environmental
Protection Agency. The State regulator was the South Carolina
Department of Health and Environmental Control (SCDHEC). SCDHEC
had primary responsibility for overseeing environmental
remediation actions required by RCRA.

     To carry out its responsibilities for overseeing
environmental remediation of groundwater, SCDHEC classified
groundwater according to guidelines contained in the South
Carolina lWater Classifications and Standards (Regulation 61 -
68),n dated May 28,1993. It was the policy of SCDHEC to maintain
the quality of groundwater consistent with the highest potential
use. SCDHEC has three classifications for groundwater: Classes
GA, GB, and GC. Class GA was established for exceptionally
valuable groundwater. Class GB was established for all
groundwaters of the State which meet the definition of
underground sources of drinking water. For Class GB groundwater,
maximum levels for each regulated contaminant were set forth in
the State Primary Drinking Water Regulations. SCDHEC realized
that some groundwaters were not considered potential sources of
drinking water, and would be of limited beneficial use. These
groundwaters were classified GC.

     Two sites contaminated prior to 1988 were the F and H Areas.
From 1955 until 1988, waste water containing metals, nitrates,
and radionuclides (primarily tritium), generated in the Sitems
chemical separations facilities, were discharged to three unlined
earthen basins in the F Area and four similar basins in the H
Area. Some of the contaminants in these basins seeped into the
groundwater. In 1986, Savannah River determined that the F and H
Area seepage basins would be regulated under RCRA as mixed waste
disposal facilities. SCDHEC approved closure activities for the
F and H Area seepage basins in 1989. Closure activities
consisted of stabilizing the sediment in the basins, backfilling
the basins with clean soil, and installing an engineered,
multilayer clay/soil cap over each basin. These closure
activities, completed in 1991, have reduced the rate at which
contaminants enter the aquifers below the basins by 95 percent.
Even so, the groundwater that was reaching the surface had
contaminant levels that exceeded acceptable levels under the
South Carolina Pollution Control Act and, therefore, posed a risk
to human health as well as the environment.

     To determine the degree of risks to human health and the
environment, Savannah River had Westinghouse perform standardized
computations and analyses. Samples of groundwater were collected
from wells whose locations were chosen to provide a thorough
coverage of the two areas. The samples were analyzed to detect
contamination that might affect human health or non-human life
forms in the environment. The degree of adverse effects was
calculated following standard procedures. These procedures
involved assumptions about possible exposure scenarios and about
the ways that such exposure could occur. Common exposure
scenarios were for: an employee on the Site in the normal course
of business (On-Site Worker scenario); a human passing through
the site (Trespasser scenario); a resident living just outside
the Site (Off-Site Resident scenario); a resident living above
and drinking the contaminated groundwater (On-Site Resident
scenario); and non-human life forms on and off the Site. Each of
these scenarios was evaluated for the likelihood that it could
occur.

      Savannah River has been working with Federal and State
regulators to improve environmental conditions at the Site. For
example, Savannah River is initiating the first phase of the
project to remediate the groundwater under the F and H Areas, in
accordance with the RCRA Operating Permit (RCRA Agreement). The
first phase, scheduled to last 5 years, will begin removing
contaminants from the groundwater and will provide information
about the groundwater that will be useful in refocusing the
project during phases two and three. The operating costs,
following initial construction, will be about $4.3 million per
year.

                             PART II

                   FINDING AND RECOMMENDATIONS


    Groundwater Remediation Plans at the Savannah River Site

     The Department of Energy (Department) was required to reduce
groundwater contamination that represented a risk to human health
or the environment. To achieve this goal, the Savannah River
Operations Office (Savannah River) entered into several formal
agreements with Federal and State regulators. The agreements
described how Savannah River would reduce the level of
contamination until the risks to human health and the environment
were lowered to an acceptable level. We found that the
agreements, covering the contamination in the groundwater under
the F and H Areas, would allow Savannah River to pursue
groundwater remediation projects that were necessary to protect
human health and the environment. However, the agreements called
for decreasing the groundwater contamination to levels that would
meet the Statems groundwater classification of GB, which would
allow a hypothetical future resident to someday live above the F
and H Areas and drink the groundwater. Basing the agreements on
drinking water standards was unreasonable because no one will
likely live above these areas or drink the groundwater. Drinking
water standards were included in the planning process because
Savannah River had not developed a Land Use Plan that would
permit rational decision making for the entire site. Lacking a
Land Use Plan, the environmental regulators assumed, and Savannah
River acceded to, the most stringent usage scenario, that the
groundwater might one day be used for drinking water purposes.
Consequently, Savannah River may continue to pursue expensive
remediation projects for longer than would be necessary to
protect human health and the environment under less stringent
scenarios. However, the cost impact of unnecessary clean-up
activities is indeterminable because acceptable contamination
limits would still have to be negotiated with the South Carolina
Department of Health and Environmental Control.


RECOMMENDATIONS

     We recommend that the Manager, Savannah River:

        1.     Complete the development of a Land Use Plan for the
             Savannah River Site (Site).

        2.       If the uses for the groundwater under the F and H
             Areas, as shown in the completed Land Use Plan, and
             other factors specified in South Carolina's "Water
             Classification and Standards," show that the
             groundwater under the F and H Areas qualifies for
             reclassification, petition the South Carolina
             Department of Health and Environmental Control (SCDHEC)
             to have those waters reclassified to Class GC.



MANAGEMENT REACTION

     Management concurred with both recommendations, but
disagreed with our presentation of some material.    Part III of
this report discusses managementms comments on our finding and
recommendations.


                          DETAILS OF FINDING


RESPONSIBILITY FOR PROTECTING HUMAN HEALTH AND THE ENVIRONMENT
     The Department was responsible for planning and executing
effective environmental remediation projects needed to reduce the
risk to human health and the environment. This responsibility
extended to Savannah River's remediation projects for groundwater
under the F and H Areas. The remedial actions required for the
groundwater under the two areas were contained in the Resource
Conservation and Recovery Act (RCRA) Agreement and the Federal
Facilities Agreement, which were signed by Savannah River,
Environmental Protection Agency (EPA), and SCDHEC. The RCRA
Agreement incorporated the standards set by South Carolina's
"Water Classifications and Standards (Regulation 61-68)" for
Class GB groundwater. Groundwater that meets Class GB standards
is clean enough to be a source of drinking water. While carrying
out remediation projects that comply with the letter of
environmental laws and regulations, the Department must also
ensure that its legally correct actions do not leave an
unacceptable risk to life forms on and around the Site.


MAKING THE GROUNDWATER SAFE ENOUGH FOR HYPOTHETICAL FUTURE
RESIDENTS

     The agreements, covering the contamination in the
groundwater under the F and H Areas, would allow Savannah River
to pursue groundwater remediation projects that were necessary to
protect human health and the environment. Risk assessments and
comparisons to standards set by South Carolina's "Water
Classifications and Standards" showed that the remediation
projects were necessary. The risk assessments showed that there
would be an unacceptable carcinogenic risk to On-Site Workers and
to On-Site Residents. Also, there was an unacceptable non-
carcinogenic risk and radiological risk to On-Site Residents.
The level of tritium that an On-Site Resident might consume from
a domestic well in the F or H Areas was over 750 times the
allowable level for drinking water (20 picocuries per milliliter)
set by South Carolina's "Water Classifications and Standards."
The level of tritium reaching the Four Mile Branch creek, from
the F and H Areas, was 50 times the allowable level of 20
picocuries per milliliter. The concentration of mercury in the
groundwater also exceeded acceptable levels in the H Areas.

     For the F and H Areas, the goal specified in the RCRA
Agreement was to treat until the contaminant levels in extracted
groundwater were less than those specified by South Carolina law.
These levels mirrored the standards for primary drinking water.
For example, the maximum acceptable tritium concentration was 20
picocuries per milliliter. In addition, the RCRA Agreement
required Savannah River to use the Pump and Treat method of
remediation, with reinjection. The Pump and Treat method entails
pumping the contaminated groundwater to the surface, treating the
groundwater by removing or stabilizing the contaminants, and then
disposing of the cleansed groundwater by pumping it back
underground or discharging it to the surface. In this case, all
cleaned groundwater was to be reinjected into the ground. A
properly designed Pump and Treat system will reduce the
concentration of dissolved or suspended materials, such as
metals, organic chemicals, and some radionuclides. However, the
Pump and Treat method will not remove tritium from the
groundwater under the F and H Areas.

     The agreements called for decreasing groundwater
contamination to levels that are more stringent than necessary to
protect life forms, given the more likely current and future use
of the F and H Areas. Specifically, the plan set a goal of
decreasing the tritium and other contaminants under the F and H
Areasm seepage basins to levels that would allow a hypothetical
future resident to someday live above one of the areas, eat food
grown in the contaminated area, and drink the groundwater.
Basing the agreements on drinking water standards was
unreasonable because, based on likely future use, no one will
live above these areas or drink the groundwater.


LAND USE PLAN

     Savannah River did not have a Land Use Plan showing the
intended future uses of the Sitems land and groundwater.
Savannah River should have developed a Land Use Plan officially
designating which parts of the 310 square mile Site could be used
for different types of future activity. For example, the plan
would have mapped out areas at the Site which: (1) could be
institutionalized, never used, and be subject to controlled
access; (2) could be used for industrial purposes, after adhering
to moderate contamination standards; or (3) could be used for
residential purposes, after adhering to the most stringent
contamination standards. This lack of formal planning included
the F and H Areas. Even though Savannah River officials stated
that it was not their intention to use the F and H Areas for
residential purposes they had never committed that intention to
writing. Therefore, Savannah River could not demonstrate that it
was unlikely that the groundwater under the F and H Areas would
ever be used as a source of drinking water.

     Without a Land Use Plan outlining Savannah River's intended
future use of the Site, the EPA and SCDHEC chose a conservative
course of action by classifying the groundwater under the F and H
Areas as Class GB, based on the assumption that the groundwater
might be used for drinking water purposes at some time in the
future. According to South Carolina law, all groundwater in the
state of South Carolina is classified as GB by default. All GB
groundwater must be brought into compliance with maximum
concentration limits for the contaminants listed in the law. The
maximum concentration limits are specific for each listed
contaminant (such as 20 picocuries per milliliter for Tritium)
and are applied to all GB groundwater in the state. Meeting
these maximum concentration limits would make the groundwater
clean enough to be used as drinking water.

     The classification of the groundwater under the F and H
Areas may be changed to GC if the requirements of South Carolina
law are met. GC groundwater is defined as groundwater not
considered a potential source of drinking water, of limited
beneficial use, and contaminated beyond levels that allow cleanup
using methods reasonably employed in public water system
treatment. Also, the groundwater must not migrate to GA or GB
groundwater or discharge to surface water that could cause
degradation. If the classification of the groundwater can be
changed to class GC, the maximum concentration limits become
negotiable. Until the maximum concentration limits are
negotiable, it is unlikely that SCDHEC will change those limits.

     One key prerequisite to reclassifying groundwater as GC is a
demonstration that the groundwater will not have a potential use
as drinking water. A statement to that effect, and the basis for
that statement, could be included in a Land Use Plan, if Savannah
River had one. Until Savannah River completes its Land Use Plan,
specifying that the groundwater under the F and H Areas will not
be used for drinking water, there is no basis for SCDHEC to
change the classification to GC. During this review, Savannah
River took the first step in developing a Land Use Plan. In
January 1996, Savannah River issued the "Savannah River Site
Future Use Project Report: Stakeholder-Preferred Recommendations
for SRS Land and Facilities." As stated by management, "this
project report is a prerequisite to developing a Land Use Plan
and decision."


EFFECT OF CLEANING TO DRINKING WATER STANDARDS

     Savannah River may continue to pursue expensive remediation
projects for longer than would be necessary to protect human
health and the environment from tritium, other radionuclides, and
non-radioactive contaminants. Because of the presence of
radionuclides, especially tritium, the isolated, subterranean
groundwater will not be sufficiently decontaminated to drinking
water standards for at least 100 years -- regardless of the
treatment efforts. The water reaching the surface at the
seepline is less contaminated due to dilution by rainwater and
the natural retardation of contaminant migration. It should take
less time for it to reach drinking water standards -- regardless
of the treatment efforts. How much less time is indeterminable
because Savannah River could not provide an estimate of how long
it would take for the groundwater under the F and H Areas,
reaching the surface at the seepline, to reach regulatory
standards -- with or without treatment. Savannah River is
currently calculating an estimate of clean-up times for treatment
and non-treatment scenarios through computer modeling.

                               PART III

                    MANAGEMENT AND AUDITOR COMMENTS


In responding to the initial draft version of this report, the
Savannah River Operations Office (Savannah River) stated that
they concurred with both recommendations, but disagreed with our
presentation of some material.. A summary of management's
comments and our replies follows.

Recommendation 1.      Complete the development of a Land Use Plan
for the Site.

Management Comments. Concur. Management agreed it should
continue as planned with its development of a land use plan for
the Site. This plan should be completed in approximately 2
years.

Management pointed out that the groundwater is classified as
Class GB which is required by the South Carolina Pollution
Control Act to be cleaned to drinking water standards. Although
future Site use and risk are considered in remedial action
decisions, a Land Use Plan would not provide shelter from
adherence to that state law.

Auditor Comments. Management's proposed actions are responsive
to the recommendation.
The report does not suggest that Savannah River should not adhere
to state law. In fact, compliance with the prerequisites
specified in the law (including determining the highest future
use of the groundwater) is what completion of the first
recommendation will accomplish.


Recommendation 2.   If the uses for the groundwater under the F
and H Areas, as shown in the completed Land Use Plan, and other
factors specified in South Carolina's "Water Classification and
Standards", show that the groundwater under the F and H Areas
qualifies for reclassification, petition the South Carolina
Department of Health and Environmental Control (SCDHEC) to have
those waters reclassified to Class GC.

Management Comments. Concur. Management stated that, if the
groundwater appears to qualify for reclassification, Savannah
River will petition SCDHEC to have the groundwater reclassified
to Class GC.

Management pointed out that a RCRA Alternate Concentration Limit
/ Mixing Zone (ACL/MZ) demonstration must be conducted and
approved by South Carolina to raise clean-up standards contained
in the RCRA permit. A deviation from South Carolina law is not
required to perform an ACL/MZ demonstration. The ACL/MZ process
does not require reclassification of either the
groundwater or the surface water bodies to be successful, but it
must be part of a remedial action. Reclassification of the
groundwater does not guarantee negotiation of maximum
concentration limits.

Management also pointed out three potential obstacles that must
be cleared before reclassification is possible. Contaminated
groundwater from the F and H Seepage Basins is presently
discharging to a surface water body, Four Mile Branch, and
causing degradation of that stream not allowed by the South
Carolina Pollution Control Act. Secondly, groundwater
contaminated by the F and H Seepage Basins is migrating laterally
and downward in this area and may impact other aquifers not
presently contaminated. Finally, Management stated that SCDHEC
does not support aquifer reclassification.
Auditor Comments. Management's proposed actions are responsive
to the recommendation.
We continue to believe that Savannah River's proposed method of
attempting to raise the acceptable level of contamination in the
groundwater under the F and H Areas, by performing an ACL/MZ
demonstration, is unlikely to succeed for two reasons. First,
Savannah River has already tried to achieve relaxed concentration
limits using this method and been rejected twice in the past. In
August 1995, PRC Environmental Management, Inc. reported to
Savannah River that "Although relief from the concentration
limits possibly may be obtained through a mixing zone request,
denial of such a request is quite likely." Second, as long as
the groundwater remains classified as Class GB, the maximum
concentration limits are set out, in specific detail for each
regulated contaminant, in South Carolina law. The law describes
the procedures for removing a potential use (such as for drinking
water) and the subsequent need to petition for reclassification.
Since the law does not prescribe any specific maximum
concentration limits for Class GC groundwater, they must be
established for each body of groundwater. We agree that
negotiations are not guaranteed in the law, but there is no
reason to assume that SCDHEC would act arbitrarily or
dictatorially and refuse to discuss (negotiate) the limits that
would have to be established.

We agree that there are potential obstacles to reclassification
of the groundwater under the F and H Areas. First, our report
does not suggest that Savannah River should attempt to curtail
the treatment of the groundwater until the water reaching the
surface at the seepline (and flowing into Four Mile Branch) meets
the requirements for that area of surface water. We encourage
Savannah River to continue pursuing responsible attempts to
modify the standards that apply to Four Mile Branch and
surrounding areas, such as the ACL/MZ demonstration. Second,
there is always the possibility that one body of groundwater may
contaminate another body of groundwater. If Savannah River
obtains evidence that that is the case with the groundwater under
the F and H Areas, reclassification may require treating both
bodies of groundwater as one. Finally, we have no evidence that
SCDHEC would not carefully consider any properly prepared and
supported petition for reclassification of groundwater.

IG Report No.   ER-B-96-02


                      CUSTOMER RESPONSE FORM

          The Office of Inspector General has a continuing
     interest in improving the usefulness of its products. We
     wish to make our reports as responsive as possible to our
     customers' requirements, and therefore ask that you consider
     sharing your thoughts with us. On the back of this form,
     you may suggest improvements to enhance the effectiveness of
     future reports. Please include answers to the following
     questions if they are applicable to you:
     1.     What additional background information about the
            selection, scheduling, scope, or procedures of the
            audit or inspection would have been helpful to the
            reader in understanding this report?

     2.     What additional information related to findings and
            recommendations could have been included in this report
            to assist management in implementing corrective
            actions?

     3.     What format, stylistic, or organizational changes might
            have made this report's overall message more clear to
            the reader?

     4.     What additional actions could the Office of Inspector
            General have taken on the issues discussed in this
            report which would have been helpful?

               Please include your name and telephone number so
     that we may contact you should we have any questions about
     your comments.

     Name                                                Date

     Telephone
Organization

          When you have completed this form, you may telefax it
     to the Office of Inspector General at (202) 586-0948, or you
     may mail it to:


                 Office of Inspector General (IG-1)
                        Department of Energy
                       Washington, D.C. 20585
                      ATTN: Customer Relations

          If you wish to discuss this report or your comments
     with a staff member of the Office of Inspector General,
     please contact Wilma Slaughter (202) 586-1924.
